                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              COMPLAINT INVOLVING UNITED WAY OF
                                              CENTRAL ALABAMA'S BIRMINGHAM WORKS
                                              FOR YOUTH PROGRAM




                                                               Date Issued: September 28, 2007
                                                                Date Issued:
                                                               Report Number: 04-07-003-03-390
                                                                Report Number: 04-06-006-03-390
U.S. Department of Labor                                    September 2007
Office of Inspector General                                 Complaint Involving United Way Of Central
Office of Audit                                             Alabama’s Birmingham Works For Youth Program

                                                            WHAT OIG FOUND
BRIEFLY…                                                    Our audit found that allegation 1 was valid. UWCA did not
Highlights of Report Number: 04-07-003-03-390, to the
Assistant Secretary for Employment and Training.            operate an effective YOG program. The program enrolled
                                                            one-third of the number of participants called for by the $20
WHY READ THE REPORT                                         million grant, yet spent 96 percent of its awarded funds. The
                                                            program did not meet its performance goals in the areas of
The Workforce Investment Act (WIA) established the          high school completion, college enrollment, or employment.
Youth Opportunity Grant (YOG) program to increase the
long-term employment of youths who live in                  We could not make a conclusion on the validity of allegations
empowerment zones, enterprise communities, and high         2 and 3; however, we did find that BWY claimed credit for
poverty areas. Between March 2000 and June 2006, the        placing participants in long-term unsubsidized employment
Employment and Training Administration (ETA) awarded        even though participants were already employed upon entering
$20 million of YOG funds to the Jefferson County,           the program. In addition, BWY's case files lacked adequate
Alabama, Office of Community Development.                   documentation to support BWY's claimed results and/or the
Jefferson County contracted with the United Way of          eligibility of participants served.
Central Alabama (UWCA) to be the service provider for
the YOG program. UWCA established the Birmingham            Allegations 4 and 5 were not valid. UWCA used YOG funds
Works for Youth (BWY) program, a community                  properly to purchase office equipment and paid employee
collaborative initiative to serve youth through a case      wages in accordance with the YOG agreement.
management referral system.
                                                            WHAT OIG RECOMMENDED
The Office of the Inspector General received a complaint
alleging that BWY officials misused and mismanaged          We recommended that the Assistant Secretary for Employment
grant funds. The complaint alleged that (1) UWCA did        and Training ensure that ETA provides adequate technical
not operate an effective YOG program; (2) BWY case          assistance and monitoring of any future DOL-funded programs
managers forged and falsified participant job placement     operated by Jefferson County.
records; (3) BWY case managers falsified and materially
overstated program enrollment numbers to ETA; (4)           In response to the draft report, UWCA officials stated that they
UWCA did not use YOG funds properly when purchasing         operated the YOG program in a programmatically and fiscally
used office equipment; and (5) UWCA did not pay wages       responsible manner under the direct oversight of ETA.
to employees in accordance with the YOG agreement.

WHY OIG DID THE AUDIT

The purpose of the audit was to determine the validity of
the five allegations made in the hotline complaint.

READ THE FULL REPORT

To view the report, including the scope, methodology,
and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2007/04-07-003-
03-390
                                                       Audit of UWCA Birmingham Works for Youth Program




Table of Contents
                                                                                                                  PAGE

EXECUTIVE SUMMARY .............................................................................................. 3


ASSISTANT INSPECTOR GENERAL’S REPORT ...................................................... .7

RESULTS

       The allegation that UWCA did not operate an effective YOG program that
       met performance goals for employment, high school graduation, and
       college enrollment was substantiated............................................................... 8

       We could not conclude whether case managers forged and falsified
       participant job placement records to increase the number of participants
       reported as placed in long-term employment..................................................11

       We could not conclude whether BWY falsified and materially overstated
       program enrollment numbers to ETA...............................................................13

       The allegation that UWCA used YOG funds improperly when purchasing
       used office equipment was not substantiated................................................15

       The allegation that UWCA did not pay employees wages in accordance
       with the YOG agreement was not substantiated ............................................16

APPENDICES ............................................................................................................19

Appendix A -- Background ......................................................................................21

Appendix B -- Objectives, Scope, Methodology, and Criteria ..............................23

Appendix C -- Acronyms and Abbreviations ..........................................................27

Appendix D -- Auditee Response.............................................................................29




U.S. Department of Labor—Office of Inspector General                                                                        1
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program




              THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                  U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 04-07-003-03-390
                                                              Audit of UWCA Birmingham Works for Youth Program




Executive Summary
The Office of Inspector General conducted a performance audit of the United Way of Central
Alabama (UWCA) Inc., Birmingham Works for Youth (BWY) program. The audit was
conducted in response to a hotline complaint alleging that BWY officials misused and
mismanaged Department of Labor (DOL) funds.

The Workforce Investment Act (WIA) established the Youth Opportunity Grant (YOG)
program to increase the long-term employment of youths who live in empowerment zones,
enterprise communities, and high poverty areas. Between March 2000 and June 2006, the
DOL, Employment and Training Administration (ETA) awarded $20 million of YOG funds to
the Jefferson County, Alabama, Office of Community Development (Jefferson County1).
Jefferson County contracted with UWCA to be the service provider for the YOG program.
UWCA established the BWY program, a community collaborative initiative to serve youth
through a case management referral system.

The BWY program was funded entirely with YOG funds. The grant was originally scheduled
to expire on June 30, 2006, with hopes that the grantee would secure other financial
resources to continue the program. The grantee was unable to do so, and ETA extended
the grant period to December 31, 2006, to allow UWCA to wrap up BWY program activities.

The objective of the audit was to determine if the allegations in the complaint against
UWCA/BWY could be substantiated. The complaint alleged that:

         1.       UWCA did not operate an effective YOG program that met performance goals
                  for employment, high school graduation, and college enrollment.

         2.       BWY case managers forged and falsified participant job placement records to
                  increase the number of participants reported as placed in long-term
                  employment.

         3.       BWY case managers falsified and materially overstated program enrollment
                  numbers to ETA.

         4.       UWCA did not use YOG funds properly when purchasing used office
                  equipment.

         5.       UWCA did not pay wages to employees in accordance with the YOG
                  agreement.




1
  The Grantee’s name and address was changed from Birmingham/Jefferson County Job Training, City of Birmingham (SDA) to Jefferson
County, Office of Community Development on July 1, 2000.


U.S. Department of Labor—Office of Inspector General                                                                            3
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program


Results

         1.   The allegation that UWCA did not operate an effective YOG program that met
              performance goals for employment, high school graduation, and college
              enrollment was substantiated. The program enrolled just one-third of the
              number of participants called for by the $20 million grant, yet spent 96 percent
              of its awarded funds. Furthermore, the program did not meet its performance
              goals in the areas of high school completion, college enrollment, or
              employment.

         2.   We could not conclude whether case managers forged and falsified participant
              job placement records to increase the number of participants reported as
              placed in long-term employment. However, we did find that BWY claimed
              credit for placing participants in long-term unsubsidized employment even
              though participants were already employed upon entering the program.

         3.   We could not conclude whether BWY falsified and materially overstated
              program enrollment numbers to ETA. However, we did find that BWY's case
              files lacked adequate documentation to support the eligibility of participants
              served.

         4.   The allegation that UWCA used YOG funds improperly when purchasing used
              office equipment was not substantiated.

         5.   The allegation that UWCA did not pay wages to employees in accordance with
              the YOG agreement was not substantiated.

Auditee Responses
Both Jefferson County and UWCA officials asked OIG to reconsider the finding that UWCA
did not operate an effective Youth Opportunity Grant program. UWCA officials stated that
UWCA operated the YOG (or BWY) program in a programmatically and fiscally responsible
manner under the direct oversight of ETA. UWCA also requested that OIG modify its audit
conclusion to state that based on the preponderance of evidence available, UWCA/Jefferson
County operated the program with guidance, guidelines, and performance goals set by ETA.

OIG Conclusion
We have considered UWCA and Jefferson County responses in their entirety and found no
additional information that would materially affect our conclusion that UWCA did not operate
an effective YOG program. Our findings and recommendations remain unchanged.




     4                                   U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 04-07-003-03-390
                                               Audit of UWCA Birmingham Works for Youth Program


Recommendations

We recommend that the Assistant Secretary for Employment and Training ensure that ETA
provides adequate technical assistance and monitoring of other future DOL-funded programs
operated by Jefferson County. Specifically, ETA needs to ensure that Jefferson County:

   •   serves only eligible participants;

   •   properly documents participant eligibility;

   •   maintains participant records that accurately reflect program activities; and

   •   provides adequate supervision over case managers.




U.S. Department of Labor—Office of Inspector General                                         5
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




     6                                  U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-003-03-390
                                               Audit of UWCA Birmingham Works for Youth Program


                 U.S. Department of Labor                         Office of Inspector General
                                           Washington, DC 20210




                            Assistant Inspector General’s Report

Ms. Emily Stover DeRocco
Assistant Secretary for Employment
 and Training
U.S. Department of Labor
200 Constitution Ave, N.W.
Washington, DC 20210

Based on allegations included in a hotline complaint, the Office of Inspector General (OIG)
conducted an audit of a $20 million Youth Opportunity Grant awarded to the Jefferson
County, Alabama, Office of Community Development. Jefferson County contracted with the
United Way of Central Alabama, (UWCA), to be the service provider for its Youth
Opportunity Grant (YOG) program, the Birmingham Works for Youth (BWY). The period of
performance under the grant was March 2000 to December 2006.

Our objective was to determine if the allegations discussed in the hotline complaint against
UWCA/BWY could be substantiated. The following table presents each allegation we
considered and our conclusion on whether the allegation was substantiated:

                        ALLEGATION                                         AUDIT CONCLUSION
    1. UWCA did not operate an effective Youth Opportunity                Substantiated
       Grant program (BWY) that met performance goals for
       employment, high school graduation, or college
       enrollment.
    2. BWY case managers forged and falsified participants'               Inconclusive
       job placement records to increase the number of
       participants reported as placed in long-term
       employment.
    3. BWY falsified and overstated program enrollment                    Inconclusive
       numbers to ETA.
    4. UWCA used YOG funds improperly when purchasing                     Not substantiated
       used office equipment.
    5. UWCA did not pay employees' wages in accordance                    Not substantiated
       with the YOG agreement.

While we could not reach a conclusion regarding allegations 2 and 3, we did find that BWY
claimed credit for placing participants in long-term unsubsidized employment even though
participants were already employed upon entering the program. In addition, BWY's case
files lacked adequate documentation to support BWY's claimed results and/or the eligibility
of participants served.


U.S. Department of Labor—Office of Inspector General                                            7
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program




We conducted the audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our audit objectives, scope, methodology, and criteria
are detailed in Appendix B.

Objective 1: Did UWCA operate an effective YOG program that met the YOG
performance goals for employment, high school graduation, and college enrollment?

Results--The allegation that UWCA did not operate an effective YOG program that met
performance goals for employment, high school graduation, and college enrollment
was substantiated.

In March 2000, ETA awarded a one year, $5 million YOG to the Jefferson County, Alabama,
Office of Community Development. Jefferson County contracted with UWCA to be its
service provider for the YOG program, the Birmingham Works for Youth (BWY). The grant
contained a provision for ETA to continue the program for four option years. ETA exercised
the option for each of the four years, providing total funding as follows:

                                     Program Years                          Budgeted Funding
                                         2001                                       $ 5,000,000
                                         2002                                         5,000,000
                                         2003                                         3,750,000
                                         2004                                         3,750,000
                                         2005                                         2,500,000
                                         Total                                      $20,000,000

Enrollments

The BWY program provided participants with mentoring services and training in the areas of
basic skills (reading and math), work readiness and occupational skills. The YOG statement
of work and operational budget set an enrollment goal of 1,000 youths per year, or 5,000
youths over the 5-year period of performance. At the end of the BWY program, UWCA
reported actual enrollments of 1,6362.

Although the BWY program enrolled just one-third of the planned number of participants,
ETA did not modify the grant to reduce funding. At the expiration of the grant in December
2006, the BWY program had expended $19.3 million, or 96 percent of the amount awarded.
As a result, BWY incurred costs of $11,7683 per enrollee more than double the planned cost
per enrollee of $5,000.

UWCA experienced delays in starting up its BWY program due to difficulties in finding a
suitable location for the training center within the enterprise zone, developing working
relationships with program partners, and hiring a suitable director. Consequently, ETA

2
    Subsequent information received from UWCA official stated that enrollment increased to 1698 after the audit period.
3
  The cost per participant of $11,768 is calculated by dividing the total YOG cost of $19,252,048 by the total number of participants of
1,636.
         8                                                    U.S. Department of Labor—Office of Inspector General
                                                                                  Report Number: 04-07-003-03-390
                                               Audit of UWCA Birmingham Works for Youth Program


reduced BWY’s expected program performance goals for participant enrollment for the initial
2-year period from 2,000 to 1,333. At the end of the second year, UWCA had incurred $5.1
million in program cost while enrolling 453 participants in the BWY program, 66 percent less
than the revised enrollment goal of 1,333. Although UWCA did not meet participant
enrollment goals in the first 2 years of the BWY program, ETA awarded the remaining three
option year extensions.

At the start of the third program year, ETA revised the YOG goals by dropping participants
served as a performance measure and replacing it with service activities. ETA defined a
service activity as a participant completing at least 5 hours in one or more program
development activities. The revision changed the original annual goal of serving 1,000
participants to providing 800 service activities per year. In addition, ETA indicated they
would rely on service levels and monthly placements of out-of-school youth, rather than
participants served, to track the progress of YOG sites.

Performance Goals

The YOG provided performance goals in the following areas:

   •      Attainment of high school diploma
   •      Attainment of General Equivalency Diploma (GED)
   •      Placement in Post Secondary Education
   •      Retention in Post Secondary Education
   •      Placement in Employment
   •      Retention in Employment
   •      Placement in Military
   •      Placement in Apprenticeship Program
   •      Retention in Apprenticeship Program

Table 1 provides a comparison of the performance goal established for the 5-year grant
period with the actual results reported:




U.S. Department of Labor—Office of Inspector General                                         9
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program


                                                                                                                Table 1
                                                                 5-Yr Actual           5-Yr Goals
                                                                                                          Percentage of
         PERFORMANCE LEVELS                                      Participants         Participants
                                                                                                              Goals
                                                                   Served                Served
                                                                                                            Achieved
                                                                   Totals                Totals
         High School Completion Rates

         ATTAINMENT OF HIGH SCHOOL DIPLOMA:                                   141                 500                28.20%
         ATTAINMENT OF GED:                                                    62                 375                16.53%
         TOTAL                                                               203                  875               23.20%
         College Enrollment Rates

         PLACEMENT IN POST SECONDARY                                          224                 315                71.11%
         RETENTION IN POST SECONDARY
                                                                                 4
         EDUCATION                                               Not Available        Not Available         Not Available
         Employment
         PLACEMENT IN EMPLOYMENT (after 2
         weeks of initial employment)                                       296                 625                47.36%
         RETENTION IN EMPLOYMENT                                  Not Available       Not Available         Not Available
         PLACEMENT IN MILITARY                                    Not Available       Not Available         Not Available
         PLACEMENT IN APPRENTICESHIP
         PROGRAM                                                                 3                470                 0.64%
         RETENTION IN APPRENTICESHIP
         PROGRAM                                                  Not Available       Not Available         Not Available


As shown above, the BWY program did not meet any of its performance goals. Except for
placement in post secondary education (71% of goal), BWY's reported results were less than
50 percent of the performance goals established by the YOG for those goals for which
results were tracked. We were unable to report on ETA's revised performance goals
because the state data system was unable to provide information needed to calculate WIA
measures.

UWCA was unable to obtain nonfederal funding for the BWY program, and it ceased
operations as of December 31, 2006. According to a UWCA official, a town hall meeting was
held at the end of the program. At the meeting, participants who had successfully completed
educational and employment activities were introduced in an effort to raise funds. However,
no additional funds were raised to sustain the program.

Conclusion

The allegation that UWCA did not operate an effective YOG program was substantiated.
The BWY program enrolled just one-third of the number of participants called for by the $20
million grant, yet spent 96 percent of its awarded funds. As a result, costs totaled $11,768
per enrollee, well above the planned cost per enrollee of $5,000. For those goals that could
be measured, BWY failed to meet its performance goals in the areas of high school
completion, college enrollment, and employment.
4
  Not Available - UWCA did not measure several training activities. According to UWCA, the grant did not require them to track the training
conducted to the program outcomes. The outcomes above include younger and older youth combined activities, since their activities were
not tracked by age as required by the grant, but rather by in-school youth (ISY) and out-of-school youth (OSY).
      10                                                     U.S. Department of Labor—Office of Inspector General
                                                                                 Report Number: 04-07-003-03-390
                                               Audit of UWCA Birmingham Works for Youth Program




As the BWY program has ceased to operate, we make no recommendations for improving
program operations.


Objective 2: Did case managers forge and falsify participant job placement records to
increase participants reported as placed in long-term employment?

Results -- We could not conclude whether case managers had forged and falsified
participant job placement records to increase the number of participants reported as
placed in long-term employment.

BWY policy required case managers to complete the following forms to record and track
participants placed in unsubsidized employment:

   •   BWY 114 - Placement Activity Form
   •   BWY 145 - Monthly Employment Report
   •   BWY 147 - Monthly Employment Memo

As previously noted, the complainant alleged that case managers forged participant
signatures on placement records; however, none of these key forms listed above required a
signature. Therefore, we did not substantiate this element of the allegation.

BWY forms 145 and 147 do require case managers to indicate whether the participant or
BWY secured the job placement and whether the participant received defined pre-placement
activities. Both ETA and BWY require that a participant must have received a defined job
pre-placement activity to be reported as long-term placement.

The ETA Youth Opportunity Grant Glossary of Terms defines pre-placement activity as:

       A specific group of youth development activities with a specific entrance and
       completion point designed to prepare enrollees for long-term placements, for
       example:

              •   Internship/Unsubsidized employment for less than two weeks;
              •   Job readiness training;
              •   GED preparation; and
              •   SAT preparation.

We examined a random sample of 80 participant files to verify the validity of reported long-
term job placements and to determine if participants received pre-placement activities and
case managers provided post employment follow up services. The documentation in 4 of the
files revealed that BWY claimed credit for long-term employment even though the
participants were already employed in the same job upon entering the program.



U.S. Department of Labor—Office of Inspector General                                        11
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program


For 23 participants’ files5, we found evidence indicating that case managers had little or no
contact with participants after placement. The files contained case notes that were identical
from one month to the next, for as long as 10 months. Case managers merely duplicated
their case notes and changed the dates on the forms.

BWY policy required case managers to document their contacts with participants after
placement when providing followup services, using the following forms:

     •     BWY 121 and 134 – Contact Notes Forms
     •     BWY 114 - Placement Activity Report
     •     BWY 145 - Monthly Employment Report

BWY’s Quality Control policy required that case notes be original (not duplicated), specific
and valid. Case managers did not comply with this policy. Of the 17 case managers6
employed by BWY, 12 were responsible for the questionable information we found in
participants’ files. For one case manager, we found that eight participants’ files had identical
case notes (forms BWY 121 or 134) for several months in each file. In one participant file,
we found the same case notes were duplicated for 10 months. The only differences found
on the forms were the dates.

We found evidence in 4 of the 23 files that leads us to question whether the BWY case
managers really worked with the participants. For example, case notes in two files
stated, “Discuss her future plans” even though the participant was a male in both
cases. This sentence appeared for 3 months in one file and 4 months in the other file.
The case manager indicated face-to-face contacts with both participants.

BWY officials stated they were aware problems existed and issued several employee
warning notices. The warning notices addressed quality control issues involving case
managers’ notes that were identical, unclear and invalid. Jefferson County Center for
Workforce Development raised similar concerns in its July 2004 monitoring report. The
report stated that many of the case notes were pre-prepared and duplicated. To
ensure that case managers complied with the quality control policy, BWY requested
Coordinators perform random file checks to discourage copying and pasting of case
notes. In addition, BWY management stated they conducted staff meetings to reiterate
BWY’s Quality Control policy related to case managers’ notes.

Because of the frequency of exceptions found in our samples, we attempted to contact the
367 participants to verify whether they received services. We established contact with 8 of
the 36 participants. Four8 of the eight participants disputed information in their files. Based
on our conversations with these four participants, we concluded that information in their files
was unreliable and misleading, such as BWY's claims of participants’ placements and the

5
  In finding No. 3, we found nine of the 76 participant files tested to verify the validity of reported enrollments also contained case
managers' notes that did not comply with BWY’s Quality Control policy of being original (not duplicated), specific and valid.
6
  Seventeen YCDS (case managers) were required to conduct post employment followup services.
7
  The 36 of 156 (80 +76) participants contacted include 27 from job placement and 9 from enrollment samples.
8
  Three of the six had Enterprise Community attestation issues, are discussed in detail in Finding No. 3.
      12                                                        U.S. Department of Labor—Office of Inspector General
                                                                                    Report Number: 04-07-003-03-390
                                               Audit of UWCA Birmingham Works for Youth Program


number of case managers’ contacts. Four of the 8 participants contacted could not verify the
exact number of contacts made by BWY case managers, but indicated their overall
satisfaction with the services they had received.

Two case managers stated their supervisors told them to copy and paste the information,
change the dates and write generic case notes. We were unable to determine if the case
managers were falsifying information or simply taking short cuts based on instructions, they
received from their supervisors; however, it is unlikely that a case manager and participant
had the same conversation each month for 6 to 10 months. Other BWY case managers
denied that BWY supervisors instructed them to forge or falsify participants’ records. The
BWY Director also denied instructing staff to forge or falsify documents.

Conclusion

The allegation that BWY case managers forged participant signature on placement records
was not substantiated. The forms used by BWY to record and track participants placed in
unsubsidized employment did not require a signature.

Review of a random sample of 80 participant case files found evidence that BWY improperly
claimed credit for 4 placements in long-term employment for participants who were
employed in the same job when they entered the program. Another 23 files contained
information that was simply duplicated from one month to the next, providing little assurance
that BWY provided any useful followup services to participants.

As the BWY program has ceased to operate, we make no recommendations for improving
program operations.


Objective 3: Did BWY falsify and materially overstate program enrollment numbers to
ETA?

Results -- We could not conclude whether BWY falsified and materially overstated
program enrollment numbers to ETA.

While we were unable to determine whether BWY falsified program enrollment numbers, we
did find that 52 of 76 participant files tested lacked documentation to support YOG eligibility
requirements. BWY's internal controls did not ensure participants’ files were complete and
contained accurate information.

Files Lacking Documentation of U. S. Residency

The YOG contained the following requirement:

       Youth must simply be between the ages 14 and 21 at enrollment, reside in
       the target area, be legal U. S. residents and males ages 18 and above must
       be registered as required under the Selective Service Act.

U.S. Department of Labor—Office of Inspector General                                         13
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program




We found that 42 of the 76 participant files tested lacked documentation demonstrating
participants were legal U. S. residents. The BWY Director said that BWY did not verify
applicants' legal U. S. residency as part of its eligibility certification process due to an
oversight on their part.

Files Lacking Proof of Residency in the Enterprise Community (EC)

20 CFR 664.820 states:

             Youth ages 14 through 21 who reside in the community identified in the grant
             are eligible to receive services.

The community identified in the YOG was the Jefferson County, Alabama, EC (Jefferson
County and the surrounding communities of Five Point, Smithfield and West End areas).
The BWY YOG program policy required verifiable, certified documentation of the participants'
residency (such as public entitlement documentation, current school records, etc.).
Participants who claimed they were living in the EC with someone other than a parent were
required to have the person who resided within the EC to complete an attestation form.

Ten of the 76 participants files in our sample did not contain support that they lived in the EC
zone. However, we found that nine participants did not have the required attestation forms in
their files to support this assertion9 and one did not reside in the EC.

We identified another four cases where attestation forms were available but contained
information that was inconsistent with other information found in the participants’ files or the
participants disputed the information when we questioned them. These four cases are
discussed below:

       •     Documentation in the participant’s file indicated that the participant lived with his sister
             (a former BWY participant) within the EC. However, the sister’s file contained a
             change of address status form showing that the sister had moved to a location outside
             the EC. This move occurred prior to the participant’s enrollment in the program.

       •     Two participants told us that they did not know the attesters or the addresses listed on
             the initial contact or attestation forms. They stated that they were not related to the
             contact persons listed on the form and had always lived at their current addresses,
             which were outside the EC.

       •     The attester's last name on the participant’s initial contact sheet completed by the
             case manager was altered and the attester's signature was different from the altered
             name on the contact sheet. There was also confusion about the attester’s
             relationship with the participant (i.e., cousin vs. aunt). In addition, the participant’s trip



9
    Twenty-nine of the 76 claimed that they were living in the EC with someone other than a parent.
        14                                                     U.S. Department of Labor—Office of Inspector General
                                                                                   Report Number: 04-07-003-03-390
                                               Audit of UWCA Birmingham Works for Youth Program


       request listed the parent’s address, which was outside the EC, just 2 weeks after
       enrollment.

Conclusion

BWY lacked adequate documentation regarding the eligibility of 52 of 76 tested participants,
and we identified four cases with questionable information related to YOG program
residency requirements. However, we were unable to determine if these irregularities were
part of a systemic attempt to manipulate program enrollment numbers, or simply poor
recordkeeping.

Recommendations

We recommend that the Assistant Secretary for Employment and Training ensure that ETA
provides adequate technical assistance and monitoring of other future DOL-funded programs
operated by Jefferson County. Specifically, ETA needs to ensure that Jefferson County:

   •   serves only eligible participants;

   •   properly documents participant eligibility;

   •   maintains participant records that accurately reflect program activities; and

   •   provides adequate supervision over case managers.


Objective 4: Did UWCA use DOL funds improperly when purchasing used office
equipment?

Results --The allegation that UWCA used YOG funds improperly when purchasing
used office equipment was not substantiated.

The complaint alleged that UWCA/BWY inappropriately utilized YOG funds to purchase new
office equipment. Specifically, the complaint states that UWCA purchased used equipment
even though the Grant called for new equipment. We did not find that the WIA sub-recipient
agreement between Jefferson County and UWCA or the YOG prohibited the purchase of
used equipment for program purposes. Additionally, the results of our testing of purchases
of new office equipment found that BWY appropriately utilized DOL funds to purchase new
office equipment. Therefore, the allegation was not substantiated.

An official for UWCA said that it was necessary to borrow used furniture for the BWY
program host facility until new furniture arrived. After the YOG program was operational,
BWY purchased equipment in accordance with the grant agreement and UWCA’s
procurement procedures.



U.S. Department of Labor—Office of Inspector General                                        15
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program


As of March 2005, the YOG Fixed Assets Activity document reported that UWCA/BWY had
spent $538,134 of its $757,822 budget for BWY’s program equipment. We obtained
UWCA/BWY's “Fixed Assets List” of equipment purchased between March 2000 and March
2005. The list indicates UWCA/BWY purchased 527 equipment items totaling $508,740.
The $29,394 difference between reported cost and cost reflected on the Fixed Asset list
consists of items less than the $500 capitalization threshold, such as supplies, equipment
with less than one year’s life, and labor cost.

We traced the purchase orders for 223 of the 527 equipment items valued at $500 and
above to the Fixed Asset Listing. We selected a judgmental sample of 23 items (10 percent)
from the Fixed Asset Listing to determine whether the equipment existed and if the purchase
was properly authorized and necessary. We found that all 23 equipment items were:

   •        purchased new;

   •        properly approved and deemed appropriate for purposes of the YOG program; and

   •        purchased at invoice prices equal to the master/fixed asset list prices on the
            equipment worksheet.

Conclusion

The allegation that UWCA used YOG funds improperly when purchasing used office
equipment was not substantiated. We found no prohibition against purchasing used
equipment to carry out the responsibilities under the YOG program. Furthermore,
UWCA/BWY purchased office equipment in accordance with the requirements of its grant.


Objective 5: Did UWCA pay employees wages in accordance with the YOG
agreement?

Results --The allegation that UWCA did not pay wages to employees in accordance
with the YOG agreement was not substantiated.

The complaint alleged that BWY employees were not paid the amounts that was stated
employees would be paid in the DOL grant.

Part IV-Special Clause of the YOG stated:

         Flexibility is allowed within the grant budget (except wages, salaries and
         fringe benefits), provided no single line item is increased or decreased
         by more than 20 %. Changes in excess of 20 % and any changes in
         wages, salaries and fringe benefits, MUST receive prior written approval
         from the DOL Grant Officer.


    16                                     U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 04-07-003-03-390
                                                                 Audit of UWCA Birmingham Works for Youth Program


The ETA Regional Administrator provided the following clarification regarding the Part IV-
Special Clause:

            If the total amount on any of the line items for salaries, wage and fringe benefits,
            or indirect costs is to change by any amount in either direction, then a
            modification is required. The amounts of individual salaries and even the
            numbers of various types of individual positions included on the project may
            change without any requirement for a modification so long as the aggregate
            amount doesn't change from the amount budgeted.

Although the allegation was not substantiated based on the Regional Administrator's
explanation that UWCA was not required to obtain a modification to the grant to change
individual salaries, we conducted additional testing to ensure individual salaries reimbursed
by Jefferson County were actually paid. To that end, we traced the reimbursed amounts to
employee payroll records. According to UWCA officials, 40 contract employees assisted
BWY staff to operate the YOG program. Since the complaint did not distinguish BWY
employees from contract employees, we included all employees in our analysis even though
the contractors generally controlled contract employees’ salaries. We compared the salaries
in employees’ files and payroll records for 15 employees. We did not note any exceptions in
the employees’ salaries, as illustrated in Table 3 below.


                                                                                       Table 3
                                 Comparison of Employee Salaries

                    Sample                                   Salary                Salary
                    Number             Position              per Files       per Payroll Records
                        1      YCDS                           25,000               25,000
                               10
                        2        OS/IS Coordinator            35,350               35,350
                               11
                        3        YCDS                         26,700               26,700
                        4      Project Director               54,080               54,080
                        5      YCDS                           25,000               25,000
                               Training Employment
                        6      Specialist                     30,500               30,500
                        7      Academic Instructor         14.50 hourly         14.50 hourly
                               Assistant Dir.
                        8      Employment                     38,000               38,000
                               Assistant Activity
                        9      Specialist                    30,300                30,300
                       10      YCDS                           25,000               25,000
                               Assistant Dir. Youth
                       11      Services                       43,680               43,680
                       12      YCDS                           26,826               26,826
                       13      Tutor                       14.50 hourly         14.50 hourly
                       14      Tutor                       14.50 hourly         14.50 hourly
                       15      Support Specialist            26,398                26,398




10
     OS/IS means out-of-school and in-school youths.
11
     YCDS means Youth Career Development Specialist, also referred to as a case manager.


U.S. Department of Labor—Office of Inspector General                                                          17
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program


Conclusion

The allegation is not substantiated. The Grant agreement required UWCA to comply with
the total budgeted amount for salaries, wages, and fringe benefits, but did not require UWCA
to pay the individual salaries listed in the grant budget.


Auditees' Responses

In their responses to the draft report, Jefferson County and UWCA officials asked OIG to
reconsider the finding that UWCA did not operate an effective Youth Opportunity Grant
program. UWCA officials stated that UWCA operated the YOG (or BWY) program in a
programmatically and fiscally responsible manner under the direct oversight of ETA. UWCA
also requested that OIG modify its audit conclusion to state that, based on the
preponderance of evidence available, UWCA/Jefferson County operated the program within
the guidance, guidelines, and performance goals set by ETA.

OIG Conclusion

We have considered UWCA's and Jefferson County's responses in their entirety and found
no additional information that would materially affect our conclusion that UWCA did not
operate an effective YOG program.




Elliot P. Lewis
June 4, 2007




    18                                  U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-003-03-390
                                               Audit of UWCA Birmingham Works for Youth Program




Appendices




U.S. Department of Labor—Office of Inspector General                                        19
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




    20                                  U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-003-03-390
                                                            Audit of UWCA Birmingham Works for Youth Program


                                                                                              APPENDIX A
BACKGROUND

This audit was initiated in response to a hotline complaint against the United Way of Central
Alabama (UWCA) / Birmingham Works Youth (BWY) program. The complaint alleged that
BWY, a community collaborative initiative of UWCA, misused and mismanaged DOL funds.
DOL funded the BWY program with a Youth Opportunity Grant (YOG). The Workforce
Investment Act of 1998 specifies that Youth Opportunity Grants are to be used to increase
the long term employment of youth who live in empowerment zones, enterprise communities,
and high poverty areas.

In March 2000, DOL awarded $5 million YOG to Jefferson County Commission (Agreement
No AZ-10126-00-60), in the form of a YOG. After the initial year of funding, YOG sites could
receive up to four additional years of funding. DOL awarded Jefferson County a total of
$19,804,385 for the period March 2000 through June 2006. Jefferson County contracted
$19,147,48912 to UWCA to be the service provider for the YOG program and retained
$656,89613 grant funds for administrative purposes. UWCA established the BWY program, a
community collaborative initiative to serve youth through a case management referral
system. The BWY program was established by UWCA and funded entirely with YOG funds.

Workforce Investment Act (WIA) specifies that the YOG grant agreement between DOL and
Jefferson County states that the YOG program will increase the long-term employment of
youths and concentrate a large amount of resources in empowerment zones, enterprise
communities, and high poverty areas to bring about community-wide impacts on:

           •   Employment rates;
           •   High school completion rates; and
           •   College enrollment rates.

The BWY program provided participants with training in various programs, including GED
preparation, tutoring, and the following four programs below:

                 Work experience program (WEP);
                 In-house occupational skill training (OST);
                 Operation CODE; and
                 Choice Program-Life skills training (LST).

Federal funding for BWY program was scheduled to expire June 30, 2006 with hopes that
the grantee would secure other financial resources to continue the program. The grantee
was unable to do so, and ETA extended the grant period to December 31, 2006, to allow
UWCA to wrap up BWY program activities.



12
     UWCA spent $18,888,232 of the $19,147,489 funds budgeted in program cost.
13
     Jefferson County spent $363,815 of the $656,896 funds in administrative cost.

U.S. Department of Labor—Office of Inspector General                                                     21
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




    22                                  U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-003-03-390
                                                              Audit of UWCA Birmingham Works for Youth Program




                                                                                                               APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

Our objectives were to determine if the allegations discussed in the hotline complaint against
Birmingham Works for Youth (BWY) could be substantiated. We designed our audit to
answer the following questions:

         1.        Did UWCA operate an effective YOG program that met performance goals for
                   employment, high school graduation, and college enrollment?

         2.        Did BWY case managers forge and falsify participants’ job placement records
                   to increase the number of participants reported as placed in long-term
                   employment?

         3.        Did BWY case managers falsify and materially overstate enrollment numbers
                   to ETA?

         4.        Did UWCA use YOG funds improperly when purchasing used office
                   equipment?

         5.        Did UWCA pay employees’ wages in accordance with the YOG agreement?

Scope
We conducted a performance audit of the UWCA/BWY program. The audit period covers
activities from March 2000 to March 2005. However, we performed audit work beyond the
audit period in some instances the scope was expanded to December 2006. Audit fieldwork
began July 2005 and concluded June 4, 2007. Fieldwork was primarily conducted at the
BWY facility located at 1637 Pearson Avenue, South West, Birmingham, Alabama.14

We conducted our audit in accordance with Government Auditing Standards for performance
audits issued by the Comptroller General of the United States. An audit made in accordance
with these standards provides reasonable assurance that it will achieve the objectives, but it
does not guarantee the discovery of illegal acts, abuse or all internal control weaknesses.
Providing an opinion on compliance with all laws, regulations, and other compliance
requirements or internal controls was not an objective of our audit and accordingly, we do
not express such an opinion. We believe our audit provides a reasonable basis for our
assessment and conclusions.

14                                                th
  We also visited the UWCA office located at 3600 8 Avenue South, Birmingham AL 35232, which housed the grant controller,
accountant, bookkeeper and director of quality assurance, as well as, a vice president and assistant who oversee the program.
                                                                                                                              rd
The Grantee’s name and address was changed from Birmingham/Jefferson County Job Training, City of Birmingham (SDA); 3420 3
                                                                                                                  nd
Avenue South Suite 202; Birmingham, AL 3522 to Jefferson County, Office of Community Development; 805 N. 22 Street; Birmingham,
AL 35203 on July 1, 2000.


U.S. Department of Labor—Office of Inspector General                                                                           23
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program




Methodology

We interviewed ETA officials, UWCA officials and BWY staff to gain an understanding of
BWY’s program and other relevant information. We utilized the Office of Inspector General
(OIG) statistician to select participants’ sample files from BWY’s universe for enrollment and
long-term job placement.

We relied on computer data from the DOL/ETA Eteams system to obtain BWY’s universe for
enrollment and placement. Both OIG auditor and BWY Assistant Director verified the
placement and enrollment lists’ totals against the reported numbers and together, using
Excel worksheet, sort the lists for duplicated social security numbers and names with
addresses. We were satisfied with the explanation given by the Assistant Director for any
exceptions and accepted the data to be sufficiently reliable. The Data Monitor receives
preliminary monthly reports through Eteams, a system that was utilized by DOL/ETA to
report information on all 36 YOG programs.

Our testing of internal controls was specific to the allegations in the complaint. We tested
controls over participant enrollment (eligibility) and job placements, including data integrity
and fraud detection, equipment procurement, and employees’ pay. In addition, UWCA/BWY
management completed an internal control survey on areas critical to the YOG program.
Details of our internal control testing are described below.

1. Enrollment and Long-term Job Placement

We obtained the universe of the 1,642 enrollment and 296 job placement participants.. We
utilized the OIG statistician to determine the sample size and method of selection of
transactions for each activity. We received the following sample sizes by email from the
statistician: Enrollees (1642) – 50 and Long-term placements (296) – 80. We used ACL
software to select sample items. We selected 76 files from our enrollment universe to
determine if participants met WIA eligible requirements. We initially selected a judgmental
sample of 26 participants for our enrollment (eligibility) test. Due to the number of
participants whose eligibility was deemed questionable, we selected a random sample of 50
additional participants files for review. We also selected a random sample of 80 participants
files for our job placements test. In total, we selected 156 participants’ files.


2. Fraud

We analyzed a total of 156 participants’ files for forged and falsified documents and any
other discrepancies that may exist. We interviewed the BWY Director and staff to determine
if the BWY Director or other managers instructed staff to forge and falsify documents. We
reviewed phone logs from UWCA regarding case managers/Youth Career Development
Specialists (YCDS’s) follow-up calls. We attempted to contact 36 of 156 participants
regarding questionable documents in their files and services received. We also considered

    24                                    U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-003-03-390
                                               Audit of UWCA Birmingham Works for Youth Program


BWY officials responses to our internal control survey questionnaire to identify areas of
potential fraud.

3. Equipment

We traced purchase orders for 223 of the 527 equipment items that cost at least $500 and
above to the Fixed Asset Listing. The 223 items were located on 35 different purchase
orders. From a universe of 222 equipment items of $500 and above (which excludes a
telephone identifying No. 40312, that was reviewed separately with all other phones), we
selected 23 equipment items a 10 percent sample to verify their existence.

The judgmental sample consisted of the first Asset/Tag number listed and then every 10th
number thereafter. We interviewed the Accountant to determine if BWY staff made purchase
requests for new equipment, the types of equipment requested and whether they received
the equipment.

4. Wages

We compared employee salaries listed in the sub-recipient agreement to the payroll
registers, for the latest Fiscal Year 2001 salary payment, to each YOG/BWY employee. We
randomly selected 15 employees of UWCA/BWY to verify salaries. We reviewed employee
personnel files, employee pay increases, contracts, employment notification letters, and
invoices to determine if wages were paid according to YOG agreement and sub-recipient
agreement. We also interviewed two Youth Career Development Specialists, two
Coordinators, and Assistant Directors of Employment to verify the agreed upon initial salary
amounts agreed on.

5. Training and Performance Outcomes

To determine training outcomes, we reviewed participants’ files for evidence of training
received, but we were unable to verify training completers, as the files did not contain
certificates of completion. We reviewed 13 of the total 80 placement sample files to
determine the types of training received and attempted to call the participants to verify the
training. We selected a random sample of 10 percent, or 11 of the 80 randomly selected
placement files. Two additional participants were judgmentally selected because one
participant received limited support from the BWY program, and the other because the
voluminous participant’s file indicated the participant might have received a significant
amount of services.

We observed training classes in session and interviewed instructors to assess usefulness of
the program. In addition, we reviewed the training program providers’ agreements and the
related program materials to determine the appropriateness of the training.

To evaluate the effectiveness of the program, we compared the cost expended to the three
measurable outcomes, high school graduation, employment and college enrollment. We
derived the percentage of participant goals to the actual participants served, by comparing


U.S. Department of Labor—Office of Inspector General                                            25
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program


the grant's cumulative participant performance goals to the cumulative participants’ actual
reported outcomes.

Criteria:
We used the following criteria in performing the audit:
   •     WIA Section 136 – Performance Accountability System
   •     WIA Section 188 – Nondiscrimination
   •     WIA Section 189 – Administrative Provision
   •     20 CFR 664 – Youth Opportunity Grant, Workforce Investment Act section 169 (a)
   •     Youth Opportunity Grant Agreement (DOL/ETA and Jefferson County)
   •     YOG Subrecipient Agreement (Jefferson County and UWCA)




    26                                    U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-003-03-390
                                                Audit of UWCA Birmingham Works for Youth Program




                                                                               APPENDIX C
ACRONYMS AND ABBREVIATIONS

BWY               Birmingham Works for Youth

DOL               Department of Labor

EC                Enterprise Community

ETA               Employment and Training Administration

OIG               Office of Inspector General

QFSR              Quarterly Financial Status Report

SAT               Scholastic Achievement Test

SOF               Statement of Facts

US                United States

UWCA              United Way of Central Alabama

WIA               Workforce Investment Act

YOG               Youth Opportunity Grants




U.S. Department of Labor—Office of Inspector General                                         27
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




    28                                  U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-003-03-390
                                               Audit of UWCA Birmingham Works for Youth Program


                                                                                 APPENDIX D
AUDITEE RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                        29
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program




    30                                  U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-003-03-390
                                               Audit of UWCA Birmingham Works for Youth Program




U.S. Department of Labor—Office of Inspector General                                        31
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program




    32                                  U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-003-03-390
                                               Audit of UWCA Birmingham Works for Youth Program




U.S. Department of Labor—Office of Inspector General                                        33
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program




    34                                  U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-003-03-390
                                               Audit of UWCA Birmingham Works for Youth Program




U.S. Department of Labor—Office of Inspector General                                        35
Report Number: 04-07-003-03-390
Audit of UWCA Birmingham Works for Youth Program




    36                                  U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-003-03-390
